      Department of Homeland Security





      Information Sharing on Foreign Nationals: Border 

                     Security (Redacted) 





OIG-12-39                                     February 2012

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                           February 13, 2012

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the Department.

This report addresses the strengths and weaknesses of the Department’s information sharing on
foreign nationals at U.S. borders. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust this report
will result in more effective, efficient, and economical operations. We express our appreciation
to all of those who contributed to the preparation of this report.




                                     Charles K. Edwards

                                     Acting Inspector General

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................7 


     Infrastructure and Resource Issues Continue To Hinder 

     Information Sharing Efforts ...........................................................................................7

     Recommendation .........................................................................................................11

     Recommendation .........................................................................................................13


     Coordination Is Essential To Manage the Foreign National Caseload ........................15

     Recommendation .........................................................................................................21

     Recommendations........................................................................................................25


     Multilateral Support Is Developing for Information Sharing ......................................25 

     Recommendations........................................................................................................30 

     Recommendation .........................................................................................................34


Management Comments and OIG Analysis ......................................................................34 



Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................41 

     Appendix B:           Management Comments to the Draft Report .......................................43

     Appendix C:           DHS Border Security Data Systems ....................................................49

     Appendix D:           Asylum Pre-Screening Case Disposition .............................................51

     Appendix E:           Reasonable Fear Case Timeliness........................................................52

     Appendix F:           Major Contributors to this Report........................................................53

     Appendix G:           Report Distribution ..............................................................................54 


Abbreviations
     AMOC                  Air and Marine Operations Center 

     APIS                  Advance Passenger Information System 

     APSS                  Asylum Pre-Screening System          

     BEST                  Border Enforcement Security Task Force 

     CBP                   U.S. Customs and Border Protection 

     Coast Guard           U.S. Coast Guard 

     DHS                   Department of Homeland Security 

     ENFORCE               Enforcement Case Tracking System

     ERO                   Enforcement and Removal Operations 

     FY                    fiscal year         

     GAO                   Government Accountability Office 

HSI 	      ICE Homeland Security Investigations
IBET 	     Integrated Border Enforcement Team
ICE 	      U.S. Immigration and Customs Enforcement
MOU 	      memorandum of understanding
NSEERS 	   National Security Entry-Exit Registration System
OAM	       Office of Air and Marine
OFO 	      CBP Office of Field Operations
OIG 	      Office of Inspector General
RAIO QA 	  Refugee, Asylum and International Operations Directorate Quality
            Assurance
TECS 	     TECS (not an acronym)
TSA        Transportation
            	             Security Administration
USCIS 	    U.S. Citizenship and Immigration Services
US-VISIT 	 U.S. Visitor and Immigrant Status Indicator Technology
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                The Department of Homeland Security has implemented several
                programs to screen foreign nationals who seek entry into the
                United States at air, land, and sea ports of entry, as well as persons
                who seek illegal entry through land and maritime borders. We
                evaluated whether levels of cooperation, resources, and technology
                were adequate for department officers charged with border
                security. This review is the second phase of a three-phase review.
                We have previously reviewed overseas screening (Information
                Sharing on Foreign Nationals: Overseas Screening OIG-11-68,
                April 2011).

                Some DHS components have developed special-purpose, user-
                friendly interfaces so that computer users performing focused
                operations, such as primary inspections at ports of entry, can
                access DHS databases. However, fragmented data systems and
                inadequate resources and infrastructure remain a challenge for
                many officers involved in border security.

                Relationships among components work well when they are
                adequately resourced and their missions are clearly defined.
                However, some relationships, most notably among law
                enforcement components on the northern and southern borders,
                struggle with mission overlap and inadequate information sharing.
                The U.S. Coast Guard’s effective and efficient information sharing
                approach is an example of how complex multiagency efforts can
                succeed. However, the sharing of information among other
                components is still evolving.

                We are making eight recommendations to use DHS resources
                better and facilitate increased data sharing.




               Information Sharing on Foreign Nationals: Border Security

                                        Page 1
Background
              DHS OIG Multiphase Review on Information Sharing

              This report is the second phase of a three-phase report on
              information sharing on foreign nationals within the Department of
              Homeland Security (DHS). In our first report, Information
              Sharing on Foreign Nationals: Overseas Screening, we described
              extensive DHS efforts to screen foreign nationals before they
              arrive at a port of entry. Efforts are focused on screening
              passengers and crew on international flights and sea vessels, as
              well as maritime interdiction. Overseas screening programs rely
              on biographical, biometric, and documentary information in DHS
              and other federal data systems.

              In our report, we determined that DHS has improved the
              evaluation of the admissibility of foreign nationals before they
              travel to the United States, and that the level of cooperation among
              DHS components that conduct overseas screening is high.
              However, we determined that DHS overseas screening initiatives
              face serious resource and technological challenges. Information is
              fragmented among more than 17 DHS data systems, and officers
              must conduct labor-intensive, system-by-system checks to verify
              or eliminate each possible match to terrorist watch lists and other
              derogatory information. Although DHS concurred with 17 of the
              18 recommendations, 5 recommendations required resources that
              the programs do not currently have.

              In this report, we focus on information sharing among DHS
              components related to border security. Information sharing within
              DHS on foreign nationals is the responsibility of five of the seven
              major DHS operational components, as well as support offices.
              The operational components are U.S. Customs and Border
              Protection (CBP), U.S. Citizenship and Immigration Services
              (USCIS), U.S. Coast Guard (Coast Guard), U.S. Immigration and
              Customs Enforcement (ICE), and the Transportation Security
              Administration (TSA), each of which is actively involved in
              sharing information throughout DHS and with other federal, state,
              local, and tribal partners. Four support offices have a role in
              information sharing:

                      The Counterterrorism Section in the Office of Operations
                      Coordination and Planning,



             Information Sharing on Foreign Nationals: Border Security

                                      Page 2
                                    The Office of Policy, which includes the Screening
                                    Coordination Office, the Office of International Affairs, and
                                    the Office of Policy Development,
                                    The Border and Immigration Analysis Division in the Office
                                    of Intelligence and Analysis, and
                                    The U.S. Visitor and Immigrant Status Indicator
                                    Technology (US-VISIT) Program in the National Protection
                                    and Programs Directorate.

                            In addition, two support offices have a role in DHS data systems
                            integration:

                                    The Information Sharing Intelligence Enterprise
                                    Management Division in the Office of Intelligence and
                                    Analysis, and
                                    The Office of Chief Information Officer in the Office of
                                    Management.

                            In our first report, we reviewed the DHS data systems that are
                            routinely used by DHS officers who are stationed overseas or are
                            stationed in the United States but screen international flights and
                            vessels before embarkation. (See appendix C.) These and other
                            systems will be discussed in this report.

                            This report evaluates the timeliness and quality of information
                            shared through DHS data systems, and through communication
                            among DHS component agencies. It also discusses how
                            interagency working relationships affect the effectiveness and
                            efficiency of operations to screen and process foreign nationals.
                            We identified agency best practices as well as some of the
                            challenges between agencies to cooperate effectively and share
                            information.

                            Border Security Operations

                            Foreign nationals can enter the United States lawfully through any
                            of 327 air, sea, or land border ports of entry. Lawful entry requires
                            CBP Office of Field Operations (OFO) officers to evaluate
                            individuals seeking entry into the United States for compliance
                            with numerous immigration, customs, and agricultural laws and
                            regulations, a process called an immigration inspection. 1 About
                            two-thirds of these inspections involve foreign nationals and about
                            one-third involve U.S. citizens. The CBP OFO National Targeting

1
    http://www.cbp.gov/xp/cgov/border_security/bs/border_sec_initiatives_lp.xml.

                          Information Sharing on Foreign Nationals: Border Security

                                                   Page 3
                         Center – Passenger, Passenger Analysis Units at air ports of entry,
                         and joint Coast Guard and CBP maritime operations, conduct
                         advance screening of most international travelers who arrive by air
                         or sea based on passenger or crew manifests. Most noncitizens
                         will have obtained a visa or, if eligible, an Electronic System for
                         Travel Authorization approval to be allowed to travel to the United
                         States and apply for admission at the port of entry.

                         At land border ports of entry, where CBP officers rarely have
                         advance notice of arrivals, most U.S. citizens and all foreign
                         nationals must present government-issued travel and identification
                         documents. For most nationalities, a passport is required. Since
                         June 2009, U.S. citizens, and citizens of Mexico, Canada, and
                         Bermuda must present a document approved under the Western
                         Hemisphere Travel Initiative. 2 Categories of foreign nationals
                         whose fingerprints are enrolled in the US-VISIT biometric
                         database (Automated Biometric Identification System) have
                         expanded to include most nationalities and visa categories.
                         Fingerprints are now enrolled for many legal permanent residents
                         and citizens of countries for which a visa is not required. Some
                         foreign nationals, such as diplomats and certain northern and
                         southern border crossers, as well as U.S. citizens, are not enrolled
                         in US-VISIT.

                         In order to protect the United States better after the September 11,
                         2001, terrorist attacks, foreign nationals from certain countries
                         were required to register with the National Security Entry-Exit
                         Registration System (NSEERS) when they arrived at a port of
                         entry. In 2009, DHS made logistical adjustments necessary to
                         terminate the NSEERS program in the event of a policy change.
                         Data captured in the NSEERS database are transferred
                         automatically to other DHS systems or captured initially in other
                         systems, including US-VISIT and Enforcement Case Tracking
                         System (ENFORCE). DHS encouraged low-threat registrants to
                         obtain waivers for up to one year so they do not have to register
                         each time they enter or depart from the United States. Waivers
                         allow NSEERS registrants to travel for a predetermined period, up
                         to a year, without the need for a CBP secondary inspection for
                         each entry and exit. Ports of entry with a large NSEERS
                         population strongly encouraged frequent travelers to obtain
                         waivers. However, some land border crossings still had NSEERS
                         registrants, including commercial truck drivers and students, who
                         register their entries and exits with CBP as often as twice daily.
2
 http://www.cbp.gov/xp/cgov/travel/id_visa/legally_admitted_to_the_u_s.xml;
http://www.dhs.gov/files/programs/gc_1200693579776.shtm.

                       Information Sharing on Foreign Nationals: Border Security

                                                Page 4
 Although entry and exit registrations have decreased from more
 than 250,000 in 2002 to about 60,000 in 2010, NSEERS remains a
 significant CBP caseload. At several ports of entry, NSEERS
 registrants were the largest caseload handled in secondary
 inspections.

 Most foreign nationals are admitted to the United States after a
 primary inspection of their travel documents and an assessment of
 their purpose for traveling to the United States. Travelers whose
 admissibility cannot be readily determined are referred to
 secondary inspection for additional checks. A secondary
 inspection consists of a more detailed review of travel documents
 and baggage, in-depth questions by a CBP officer, and multiple
 data checks against various immigration and law enforcement data
 systems. The outcome of the secondary inspection will generally
 determine whether the foreign national is permitted to enter the
 United States. Individuals denied entry may be allowed to
 voluntarily return to their country of origin or may be detained
 while their admissibility is determined through formal immigration
 proceedings. If the foreign national has a visa but is denied entry,
 CBP will generally cancel the visa at the port of entry.

 The following are some general exceptions to these procedures:

          If the local CBP OFO Passenger Analysis Unit or a CBP
          officer at secondary inspection believes that the case
          involves terrorist or criminal issues, the case may be
          referred to ICE Homeland Security Investigations (HSI) or
          other federal, state, or local law enforcement officers, and
          the alien, or foreign national, may be subject to criminal
          prosecution.

          Aliens who express to the CBP officer that they fear to
          return to their country of nationality because they believe
          they will be subject to persecution or torture are detained
          by ICE Enforcement and Removal Operations (ERO).
          Either CBP, the Coast Guard, or ICE ERO notifies the
          USCIS Refugee, Asylum, and International Operations
          Directorate, Asylum Division about these individuals.
          Asylum officers conduct an interview to determine whether
          the case has sufficient merit to be referred to an
          immigration judge for a hearing that would consider
          granting relief from removal or other protection, such as
          asylum, deferral or withholding of removal, or relief under


Information Sharing on Foreign Nationals: Border Security

                         Page 5
          the Convention Against Torture. This process is referred to
          as the “credible fear” process.

          From August 2002 until April 2011, nonimmigrants from
          certain predominantly Arab and Muslim countries were
          required to register under the NSEERS program each time
          they arrived in or departed from the United States, or had to
          obtain a waiver of these requirements.

 Persons sometimes attempt illegal entry into the United States
 between land, sea, and air ports of entry, for example across the
 northern or southern land border, along the coast, or with an
 unregistered aircraft. Protecting the borders and coasts requires
 that the U.S. Border Patrol, the Office of Air and Marine (OAM),
 ICE HSI, and the Coast Guard cooperate with each other as well as
 with the Canadian and Mexican governments, the military, the
 Intelligence Community, other federal agencies, and state, local,
 and tribal governments. Aliens who cannot immediately be
 removed are referred to the ICE ERO immigration detention
 system. The U.S. Border Patrol, ICE HSI, the Coast Guard, or ICE
 ERO may refer detained aliens for a screening interview by an
 asylum officer for protection issues or a hearing before an
 immigration judge for other immigration issues, or they may bring
 criminal charges.

 Although the primary focus of this report is on information sharing
 on foreign nationals who seek to enter the United States, we also
 reviewed some additional operations that support border security
 or involve cooperation among the DHS components that
 participate in border security:

           Although TSA generally does not screen arriving
           international passengers, it coordinates transportation
           security systems. Both TSA and CBP are increasingly
           involved in screening outbound international flights.

           TSA receives assistance from CBP OFO and the Coast
           Guard with status checks for seaport workers who carry a
           Transportation Worker Identification Credential. TSA
           conducts background checks on workers who have
           unrestricted access to ports before issuing cards.

           The CBP Air and Marine Operations Center (AMOC)
           provides law enforcement entities with domain awareness
           information and coordination to support border safety and

Information Sharing on Foreign Nationals: Border Security

                         Page 6
                                  security through advance aerial imaging, sensor and
                                  tracking systems, and monitoring of general aviation.

                                  Although ICE ERO detention and removal operations
                                  include aliens apprehended within the United States as
                                  well as at the border, we reviewed all cooperation efforts
                                  between ICE ERO and its DHS partners in this phase of
                                  the review.

                                  Although the USCIS Asylum Division interviews some
                                  aliens apprehended within the United States as well as at
                                  the border, we reviewed cooperation between the Asylum
                                  Division and its DHS partners in this phase of the review.


Results of Review
        Infrastructure and Resource Issues Continue To Hinder
        Information Sharing Efforts
                DHS has invested resources in data systems and physical infrastructure to
                improve information sharing, but some resource needs are unmet. In our
                report on overseas screening, we noted that information on foreign
                nationals is “fragmented among more than 17 data systems, and officers
                must conduct labor-intensive, system-by-system checks to verify or
                eliminate each possible match to terrorist watch lists and other derogatory
                information.” 3 In this phase of the review, we determined that CBP OFO,
                the U.S. Border Patrol, and ICE ERO have developed software that
                consolidates and streamlines access to data for large-scale operations such
                as primary inspection, border apprehensions, and enforcement and
                removal. Fragmented data systems remain a challenge for DHS officers
                who conduct more in-depth evaluations, such as secondary inspections and
                law enforcement investigations.

                We identified two areas in which DHS could conserve resources with
                relatively minor changes to data systems. (1) The NSEERS program for
                special registration of certain categories of aliens from predominantly
                Arab and Muslim countries, and the database that supports this program, is
                obsolete and should be terminated. (2) CBP could improve productivity in
                the Passenger Analysis Units by minimizing the number of duplicate flight
                manifests it receives from commercial airlines. For infrastructure resource
                needs, although DHS has invested considerable resources to improve

3
Information Sharing on Foreign Nationals: Overseas Screening, Department of Homeland Security,
Office of Inspector General (OIG Report-11-68) April 2011.

                       Information Sharing on Foreign Nationals: Border Security

                                                Page 7
staffing and infrastructure, many of the ports of entry and land and marine
border operations we visited had significant unmet needs. In some
instances, resource prioritization by one DHS component affected the
efficiency or effectiveness of other components. DHS-level coordination
could better prioritize how resources are allocated among components.

       Components Seek To Minimize Adverse Consequences of
       Fragmented DHS Data Systems

       Most databases that DHS uses were developed before the
       Department was created. Each was designed to serve specific
       antiterrorism, law enforcement, immigration, and traveler
       screening missions for its creator. The databases are not
       integrated, and DHS components that screen and vet foreign
       nationals must check information in as many as 17 data systems.

       Three DHS components have developed software to streamline and
       consolidate necessary information contained in these data systems
       to assist their officers and agents whose responsibilities for border
       security are narrowly focused:

                For officers who conduct immigration inspections, CBP
                has developed software programs that consolidate
                information from various DHS, Department of State, and
                Department of Justice data systems. Programs include the
                Traveler Primary Arrival Client, used for primary
                inspections at airports, and the Vehicle Primary Client,
                used for land border crossings. These programs enable the
                officer to make a timely determination whether a traveler
                should be admitted or referred for a secondary inspection.

                ICE ERO has developed modules within the ICE system
                called ENFORCE. This system is used to track
                immigration enforcement actions and cases. These
                modules consolidate information necessary to process
                apprehended aliens, track their immigration proceedings,
                and assist with removals.

                The U.S. Border Patrol has developed e3, which its Border
                Patrol Agents use to in-process aliens apprehended on or
                near the border. e3 has analytic tools that help Border
                Patrol Agents to assess border security based on patterns of
                past apprehensions.



     Information Sharing on Foreign Nationals: Border Security

                              Page 8
                           However, DHS officers with smaller and more complex border
                           security caseloads experience the same challenges with data
                           systems as do overseas officers and officers at the National
                           Targeting Center – Passenger. These officers include CBP officers
                           in the Passenger Analysis Units at ports of entry, ICE HSI agents,
                           the U.S. Border Patrol agents who conduct investigations, and
                           USCIS asylum officers who evaluate aliens in the credible fear and
                           reasonable fear processes.

                           The recommendations we made to assist overseas screening in the
                           first phase of our review, Information Sharing on Foreign
                           Nationals: Overseas Screening, will also benefit officers charged
                           with more complex border security screening, investigative, and
                           adjudications functions, if funds are obtained.

                           Terminate the NSEERS Program

                           After the September 11 attacks, the Department of Justice
                           introduced NSEERS to monitor the arrival, stay, and departure of
                           certain nonimmigrant aliens from predominantly Arab and Muslim
                           countries that were deemed most likely to pose a terrorist threat to
                           the United States. The NSEERS program was transferred to DHS
                           when DHS was created in 2003. Although the program may have
                           had value in the past, advancements in information technology
                           eventually rendered it obsolete.

                           We intended to recommend that DHS terminate the NSEERS
                           program. Senior DHS officials had been weighing the possibility
                           of terminating NSEERS since at least 2006. On April 28, 2011,
                           while this report was being prepared, it was announced in the
                           Federal Register that DHS was effectively ending the program. 4
                           We support the DHS decision.

                           Fully implemented in 2004, the US-VISIT Arrival and Departure
                           Information System can track both arrivals to and departures from
                           the United States. In 2009, US-VISIT largely completed its
                           transition from a two-fingerprint enrollment system to a full ten-
                           fingerprint enrollment, a capacity that previously had been most
                           readily available through ENFORCE. Recent expansion of
                           fingerprinting requirements to cover legal permanent residents and
                           nationals from visa waiver countries, as well as the more limited
                           populations in the NSEERS caseload, make US-VISIT the more



4
    Federal Register Vol. 76, No. 82, Notices, pp. 23830–23831.

                          Information Sharing on Foreign Nationals: Border Security

                                                   Page 9
 logical system for capturing all biometric information at the ports
 of entry.

 The CBP Automated Targeting System – Passenger and the ICE
 Pattern Analysis and Information Collection System enable more
 sophisticated data analysis and intelligence-driven targeting than
 was available through NSEERS. Both systems can consolidate
 information about an individual from numerous DHS data systems.
 Both can also search across data systems for individuals who might
 match a trend or pattern of concern to the Intelligence Community,
 such as travel routes or associations with known or suspected
 terrorists. In addition, CBP can update its targeting software
 within hours to adjust as the threat environment evolves. In
 contrast, changes to NSEERS required a lengthy notification
 process through the Federal Register.

 Based on our site visits to seven air ports of entry and three land
 border crossings, we determined that there was no longer a value in
 the NSEERS program. The ports of entry with the largest
 NSEERS populations had implemented a 2009 memorandum that
 enabled CBP to conduct registrations through US-VISIT rather
 than through the NSEERS database. Many of the smaller ports of
 entry continued to use the NSEERS database, and struggled with
 the system’s cumbersome design and frequent outages.

 Because the NSEERS database is unreliable and it is difficult for
 NSEERS registrants to adhere to the registration requirements,
 some waivers were granted on an ad hoc basis. Officials at ports
 of entry where NSEERS was still used told us that the system
 frequently did not function properly on some or all computers. We
 observed that when the NSEERS database functioned poorly, ports
 of entry issued one-time waivers to registrants and instructed them
 not to register on their return trip, or issued waivers of the
 NSEERS registration process to allow registrants to catch flights.
 However, at some ports of entry, registrants waited until the
 database resumed functioning, which often took hours. DHS
 estimates that the cost of NSEERS was more than $10 million
 annually at its height, though costs became lower with the
 availability of US-VISIT and waivers.

 We also observed that it was difficult for NSEERS registrants with
 limited English comprehension to understand the instructions for
 the registration process and the specific NSEERS departure
 procedures. Although certain ports of entry are not designated to
 handle NSEERS registrants, officers processed registrants rather

Information Sharing on Foreign Nationals: Border Security

                        Page 10
    than refer them to the designated port of entry. Several of the
    secondary inspections we observed involved registrants who had
    failed to register on their last entry or exit and were processed for a
    one-time waiver. With so many known improvements needed in
    the registration system, it is difficult to separate innocent mistakes
    from intentional violations, which lessens the value of the
    information collected.

    CBP officers also told us that there was little value in the
    interviews they conducted with NSEERS registrants. NSEERS
    interviews rely on self-disclosure, and CBP officers noted that
    information obtained from fingerprints, flight manifests, travel and
    identification documents, and intelligence sources is more valuable
    in determining who poses a potential national security risk. CBP
    officers also noted that the time spent to process NSEERS
    registrations was an inefficient use of resources. They said that
    their time could be better spent on more targeted interviews to
    gather intelligence, identify illegal aliens, or intercept smugglers.

    As a result of the DHS action, the program remains in existence
    after removing from its purview all of the previously listed
    countries subject to NSEERS registration. Leaving the regulatory
    structure of the NSEERS program in place provides no discernable
    public benefit. Deficiencies we identified in the NSEERS program
    were not related to the composition of the list of subject
    nationalities, but rather to the insufficient value of the NSEERS
    data. We encourage DHS to dismantle the vestiges of the program.
    This will require that DHS initiate a notice and comment
    rulemaking to eliminate 8 CFR 264.1(f)(2)-(9) and reinstate the
    prior provisions.

Recommendation
    We recommend that the Department of Homeland Security:

    Recommendation #1: Fully terminate the National Security
    Entry-Exit Registration System and reinstate the prior provisions.

    Address Duplicate Flight Manifests

    CBP Passenger Analysis Units at air ports of entry review flight
    manifests to identify any potential matches to terrorist watch lists,
    criminal records, or certain immigration violations. Timely and
    accurate review of arriving passenger information is critical to
    border security. During our site visits from August to November

   Information Sharing on Foreign Nationals: Border Security

                           Page 11
 2010, several Passenger Analysis Units reported an increase in the
 number of duplicate flight manifests. Some duplicate manifests
 have only slight variations, while other pairs diverge more
 significantly, such as one variant listing travel document and
 nationality information that the “duplicate” did not.

 We reviewed the range of technical explanations with assistance
 from CBP’s Office of Information Technology. In late December
 2010, we conducted a survey of each air port of entry we
 previously visited. We provided CBP with a copy of the survey
 responses. The duplicate manifests appear to be related to the
 transition between existing CBP Advance Passenger Information
 System (APIS) Quick Query transmissions and the new TSA
 Secure Flight system. Although all domestic airlines have used
 Secure Flight for more than a year, and most international airlines
 made the transition well before the November 2010 final transition,
 airlines might not have terminated the older APIS Quick Query
 queue. As a result, some flights and certain commercial airlines
 are more likely to produce duplicate manifests than others.

 Because the Passenger Analysis Units are aware of the problem,
 the duplicate manifests represent a drain on resources rather than a
 security risk. Determining which records are duplicates, rather
 than records of two individuals with similar names, and then
 determining which record is the most recent and most accurate,
 adds significant time to the process of vetting inbound flights.

 The greatest concern raised at several ports of entry was the
 difficulty created by the duplicate manifests when placing TECS
 lookouts on passengers who, for instance, have an outstanding
 criminal warrant. Lookouts are used to identify certain passengers
 at primary inspection for possible referral to secondary inspection
 for a more thorough examination and appropriate action, such as
 possible arrest. At one port of entry, officials reported that when
 they placed a lookout on the APIS record that indicated the
 passenger was on board, it would default to the record that
 indicated the passenger was not on board, which meant that a
 primary officer would not be aware of the lookout on the
 passenger. Officers at ports of entry have developed various
 alternatives to lessen the possibility that the issue will become a
 security risk. One port of entry sent CBP officers to meet flights at
 the gate when there was a lookout on a duplicate manifest. Others
 had developed procedures to place the lookout against both records
 within TECS. Nonetheless, passenger screening would be more
 efficient if the accuracy of flight manifests improved.

Information Sharing on Foreign Nationals: Border Security

                        Page 12
Recommendation
    We recommend that United States Customs and Border Protection:

    Recommendation #2: Collaborate with commercial airlines and
    develop solutions to reduce the incidence of duplicate flight
    manifests.

    Staffing and Infrastructure Investments

    Although DHS has invested considerable resources to improve
    staffing and infrastructure, some of the ports of entry, land, and
    maritime border operations we visited had unmet infrastructure
    needs. In some cases, poor infrastructure affected information
    sharing among DHS components or had a negative effect on the
    operations of several components. We identified the following
    deficiencies and their consequences:

    CBP Land Border Ports of Entry

             Limited direct access to law enforcement, intelligence, and
             immigration databases and high-speed Internet connections

             Insufficient lanes dedicated to the trusted traveler programs
             to facilitate business and commercial traffic

             Inadequate facilities to segregate aliens who have been
             referred for a secondary inspection (or more thorough
             examination) from travelers who seek entry to the United
             States

             Insufficient space to process passengers from commercial
             buses within the facility

             Inadequate staff to limit the routine use of overtime

    Consequence: Inadequate facilities can slow tourist and
    commercial cross-border travel without yielding security benefits.

    The U.S. Border Patrol – Southern Border

             Unreliable communications infrastructure, such as fiber
             optic cables for landlines and Internet connections

   Information Sharing on Foreign Nationals: Border Security

                           Page 13
          Inadequate mobile technology that does not allow agents to
          access databases to screen aliens in the field

 Consequence: Officer safety may be compromised in controlling
 large groups waiting to be processed and when violent criminals
 cannot be quickly identified.

 ICE ERO Detention and Removal – Detention Space

          Insufficient detention space, especially for juveniles
          apprehended near the southern border where consular
          officers from Mexico and Central America are not readily
          available to facilitate return
          Inadequate detention bed space available to CBP and ICE
          HSI near the San Ysidro Port of Entry and the San Diego
          Sector

 Consequence: Border security may be compromised if aliens are
 not detained because suitable bed space is unavailable.

 ICE ERO Detention and Removal – Detention Management

          Fingerprinting equipment insufficient or not
          technologically advanced

          Unreliable high-speed connectivity for data servers

          Limited processing space in detention centers to prepare
          cases for detention in state and local facilities

          Insufficient ICE ERO staff to transport aliens apprehended
          by CBP at ports of entry

 Consequence: Facility inadequacy slows detention processing and
 limits the assistance ICE can provide to CBP to manage aliens in
 custody.

 Each DHS component must prioritize among competing demands
 for staff and infrastructure improvements. One DHS component’s
 choice of priorities may have a direct effect on other DHS
 components. For example, inadequate ICE ERO staffing and
 processing facilities require CBP to take greater responsibility to
 manage and transport aliens in custody. Inadequate family detention
 is a concern for CBP and ICE HSI, as spouses and children may be

Information Sharing on Foreign Nationals: Border Security

                        Page 14
            released before issues related to special-interest aliens or potential
            trafficking victims can be fully evaluated. Centralized oversight of
            DHS-wide needs and priorities might allocate resources more
            efficiently.


Coordination Is Essential To Manage the Foreign National
Caseload
     Several operational components share responsibility for information about,
     and physical custody of, foreign nationals. In all these circumstances,
     information sharing is critical to successful border security operations.
     For example:

            Illegal aliens apprehended by CBP at or between ports of entry
            may be detained by ICE ERO pending an immigration hearing.

            The Coast Guard, U.S. Border Patrol, and ICE HSI also apprehend
            illegal aliens at sea or within the United States who may be
            detained by ICE ERO.

            Some of the aliens apprehended by CBP and ICE request asylum,
            withholding of removal, or protection under the Convention
            Against Torture, which requires the USCIS Asylum Division to
            conduct screening interviews and determinations while ICE ERO
            detains the applicants.

     Overall, we determined that the relationships among the DHS components
     with shared responsibility are professional and cooperative. However,
     DHS officers at the sites we visited raised three areas of concern about
     shared or overlapping missions: (1) The legal documents that ICE ERO
     receives from ICE HSI and CBP OFO to place foreign nationals in
     immigration hearings are not always complete; (2) missions that overlap
     between ICE HSI and the U.S. Border Patrol on the northern and southern
     border have been a source of concern since the establishment of DHS; and
     (3) both ICE ERO and asylum officers expressed frustration regarding the
     length of time required to process some detained asylum cases. DHS-level
     oversight could address these areas where bilateral efforts have not been
     successful.

            Processing Aliens for Immigration Hearings Requires
            Interagency Cooperation

            CBP OFO, U.S. Border Patrol, the Coast Guard, ICE HSI, ICE
            ERO, and USCIS Asylum Division have a shared responsibility to
          Information Sharing on Foreign Nationals: Border Security

                                  Page 15
 apprehend illegal aliens or place them in legal proceedings before a
 Department of Justice immigration judge. During our visits, we
 were told repeatedly that the legal paperwork is a source of
 frustration. Overall, the transfer of aliens and their legal
 paperwork between the U.S. Border Patrol and ICE ERO appeared
 seamless, as both components understood the legal status of the
 apprehended aliens and use e3 to process aliens subject to removal.
 Coast Guard processes also worked well. Lines of authority were
 clearly understood, as the Coast Guard is not limited to enrolling
 aliens apprehended into DHS data systems based on proximity to
 shore. Asylum officers noted that other DHS components may not
 correctly identify whether aliens belong in the asylum, withholding
 of removal, or Convention Against Torture caseloads, but said that
 they can easily differentiate the cases based on the information
 CBP and ICE officers enter in TECS and ENFORCE.

 However, ICE ERO officers responsible for detained aliens said
 that the paperwork from CBP OFO officers and ICE HSI agents is
 not always complete. Some detention offices did not accept
 custody of aliens until their legal counsel had reviewed the
 paperwork for legal sufficiency. This is a source of frustration for
 staff at the CBP port of entry, which retains custody during this
 process. Several ICE ERO officers said that the paperwork they
 received from CBP OFO or ICE HSI was inadequate to place an
 apprehended alien in removal proceedings, and that ICE ERO
 spent considerable time amending legal documents before it could
 present cases to the immigration courts. In a few instances, ICE
 ERO said that it could not bring charges and had to release aliens
 because of incomplete paperwork. In most instances, components
 that experienced difficulty with such shared responsibilities cited a
 loss of institutional knowledge of immigration law as the cause. In
 the eight years since the creation of DHS, the percentage of CBP
 and ICE agents and officers with prior experience in the former
 Immigration and Naturalization Service has declined because of
 attrition and retirements.

 Each of the components with these shared responsibilities sought
 to address these deficiencies. They offered to train other
 components, to provide checklists and point of contact
 information, and even to process cases themselves. Although these
 bilateral efforts are commendable, the program would benefit from
 centralized DHS headquarters-level oversight to resolve training
 and guidance issues that remain.

 Overlapping Missions of U.S. Border Patrol and ICE HSI

Information Sharing on Foreign Nationals: Border Security

                        Page 16
                         One of the primary DHS missions is to secure and manage
                         America’s land and maritime borders. According to a 2004
                         memorandum of understanding (MOU) between U.S. Border
                         Patrol and ICE HSI, the missions of ICE HSI and the U.S. Border
                         Patrol are “intricately connected and complementary.” 5 The MOU
                         noted that the U.S. Border Patrol has primary responsibility for all
                         cross-border and border-related interdiction activities between
                         ports of entry and ICE HSI has primary responsibility for all
                         investigations. An addendum to the MOU, signed in February
                         2007, provided additional guidance that requires U.S. Border
                         Patrol and ICE HSI to familiarize each other with their missions,
                         maintain regular communication, provide notification on potential
                         terrorism issues, use data systems to deconflict cases, and collocate
                         agents to facilitate communication and cooperation. 6

                         Despite this guidance, operational challenges between U.S. Border
                         Patrol and ICE HSI remain unresolved. In reviews conducted in
                         2005 and 2007, we made recommendations to improve
                         coordination and cooperation between the components that either
                         were not adopted or had limited success. 7 In its December 2010
                         report, the Government Accountability Office (GAO) also raised
                         concerns about systemic U.S. Border Patrol and ICE HSI
                         coordination challenges on the northern border. The GAO report
                         stated that if these issues were not resolved, they could have an
                         adverse effect on border security. 8

                         Furthermore, the GAO report stated that current guidance fails to
                         clarify roles and responsibilities or successfully delineate the roles in
                         interdictions and investigations. GAO said that both U.S. Border
                         Patrol and ICE HSI considered the sharing of information between
                         the two agencies to be inadequate, causing duplication of missions
                         and concerns over officer safety. GAO determined that the
                         challenges facing U.S. Border Patrol and ICE HSI underscore the
                         importance of developing and maintaining permanent solutions to
                         mitigate conflicts. GAO also determined that DHS headquarters­

5
  Guidelines Governing Interaction Between ICE's Office of Investigations and CBP’s Office of Border
Patrol, Memorandum from Robert C. Bonner, Commissioner, CBP, and Michael J. Garcia, Assistant
Secretary, ICE, November 16, 2004.
6
  Additional Information on OBP and ICE Negotiations, Memorandum from Chief Border Patrol Agent
David V. Aguilar, OBP 50/1.1.2, February 26, 2007.
7
  An Assessment of the Proposal to Merge Customs and Border Protection with Immigration and Customs
Enforcement (OIG-06-04); DHS’ Progress in Addressing Coordination Challenges between Customs and
Border Protection and Immigration and Customs Enforcement (OIG-07-38) April 2007.
8
  Border Security: Enhanced DHS Oversight and Assessment of Interagency Coordination Is Needed for
the Northern Border (GAO-11-97) December 2010.

                       Information Sharing on Foreign Nationals: Border Security

                                               Page 17
 level guidance is needed to provide the oversight and leadership to
 address these coordination issues.

 We conducted our site visits for this review within weeks after the
 GAO site visits, and included both the northern and southern
 borders. We concur with the GAO assessment. The unresolved
 sources of disagreement between ICE HSI and U.S. Border Patrol
 include the following:

 Shared Investigative Territory

 Among the challenges both ICE HSI and U.S. Border Patrol agents
 cited when they conducted interceptions and investigations in the
 same areas on the northern and southern border are the need to—

          Deconflict access to informants, witnesses, and persons of
          interest

          Determine when the U.S. Border Patrol intelligence
          gathering becomes a criminal investigation

          Prioritize controlled cross-border deliveries of drugs,
          weapons, cash, or aliens operations, which the U.S. Border
          Patrol leads to support ICE HSI investigations

 U.S. Border Patrol Relationships With Department of Justice
 Law Enforcement Agencies

 ICE is the largest investigative branch of DHS and, as noted in the
 MOU, has primary responsibility for DHS investigations of
 persons other than DHS employees. (Our office investigates
 allegations of criminal misconduct by DHS employees.) However,
 the MOU notes that the U.S. Border Patrol is also authorized to
 conduct investigations. This overlap is not unique; other federal
 agencies, notably the Department of Justice, are authorized to
 conduct investigations that overlap with the DHS mission. In this
 structure, the missions of ICE HSI and the U.S. Border Patrol are
 not well aligned:

          Although the U.S. Border Patrol moved from the
          Department of Justice into DHS in 2003, it remains bound
          by a 1996 MOU to refer all of its drug seizures first to the
          Department of Justice Drug Enforcement Administration
          when such seizures are made under the authority of its Title
          21 designation.

Information Sharing on Foreign Nationals: Border Security

                        Page 18
          The U.S. Border Patrol has well-established relationships
          with Department of Justice agencies whose missions
          overlap with ICE’s on the northern and southern borders,
          such as the Federal Bureau of Investigation and the Bureau
          of Alcohol, Tobacco, Firearms and Explosives. Because of
          these established relationships, these agencies often ask the
          U.S. Border Patrol directly for information and assistance
          rather than work through ICE HSI.

          ICE’s mandate is broad, and includes issues in the U.S.
          Border Patrol’s mandate (e.g., national security threats,
          human smuggling and trafficking, and narcotics smuggling)
          as well as issues outside its direct mandate (e.g., financial
          crimes, commercial fraud, counterproliferation, child
          pornography and exploitation, and immigration benefit
          fraud).

 Information Sharing Constraints

 Information sharing on potentially overlapping operations is a
 source of disagreement between the U.S. Border Patrol and ICE
 HSI. Both are concerned that gaps in information sharing practices
 could compromise officer safety:

          The U.S. Border Patrol expected more situational
          intelligence from ICE HSI than it currently receives and
          generates its own intelligence to fill this gap.

          The U.S. Border Patrol expected more information from
          ICE HSI on open investigations, particularly on cases for
          which the U.S. Border Patrol provided the original lead, but
          ICE HSI considers that information on open investigations
          should be shared on a “need to know” basis.

          Data entry in TECS is an ineffective method for sharing
          information, as the U.S. Border Patrol does not have access
          to the TECS investigative module, and ICE HSI considers
          some Border Patrol case information to be delayed or
          incorrectly entered into TECS.




Information Sharing on Foreign Nationals: Border Security

                        Page 19
                         Data System Constraints

                         The current structure and planned upgrades to the data systems are
                         not designed for information sharing on investigations and
                         operations that may overlap:

                                 The U.S. Border Patrol’s primary data system is e3, an
                                 ICE-owned biometric-based system used to track
                                 apprehensions, detentions, immigration hearings, and
                                 removal of illegal aliens.

                                 ICE HSI’s primary data system is TECS, a CBP-owned
                                 biographic-based system designed to track activities at
                                 ports of entry, seizures, and (in the TECS III module)
                                 ongoing investigations.

                                 The U.S. Border Patrol created e3, intended for use by both
                                 ICE HSI and U.S. Border Patrol for border operations.
                                 However, ICE has not adopted the system.

                                 Both ICE HSI and the U.S. Border Patrol expressed
                                 concern that TECS modernization led by the CBP Office of
                                 Information Technology did not solicit adequate comments
                                 on their information sharing needs.

                         The GAO December 2010 report recommended DHS-level
                         oversight of U.S. Border Patrol and ICE HSI compliance with the
                         provisions of the interagency MOU, to include evaluation of
                         outstanding challenges and planned corrective actions. DHS
                         concurred with the recommendation, but said it would comply by
                         reconstituting the former ICE-CBP Coordination Council, which
                         met for a few years after our 2005 report and then became inactive,
                         to review compliance. GAO noted that while it existed, the
                         Coordination Council “was unable to improve upon the long-
                         standing coordination challenges between U.S. Border Patrol and
                         ICE HSI.” 9 Many U.S. Border Patrol and ICE HSI agents we
                         interviewed also expressed concern that enforcement of the MOU,
                         even through a Coordination Council, would not address long-
                         standing sources of disagreement. Most said the solution was clear
                         DHS-level guidance on missions and priorities.



9
  Border Security: Enhanced DHS Oversight and Assessment of Interagency Coordination Is Needed for
the Northern Border (GAO-11-97) December 2010.

                       Information Sharing on Foreign Nationals: Border Security

                                               Page 20
    We believe that GAO’s recommendation, if implemented as
    envisaged, would address many of the tensions between the U.S.
    Border Patrol and ICE HSI. We consider that duplication of effort,
    poorly aligned priorities, inadequate methods to share and
    safeguard information, and potential threats to officer safety will
    continue until DHS-level oversight of the MOU is addressed.

Recommendation
    We recommend that the Department of Homeland Security:

    Recommendation #3: Establish Department-level oversight to
    address Customs and Border Protection, Office of Border Patrol,
    and Immigration and Customs Enforcement, Homeland Security
    Investigations operational challenges.

    Improve Timeliness of the Reasonable Fear Process

    The asylum pre-screening program also requires cooperation
    between DHS components. The USCIS Asylum Division has
    jurisdiction for two categories of aliens who seek protection after
    being apprehended by CBP or ICE and detained by ICE ERO.

    One category is aliens who seek asylum when they are detained at
    a port of entry by CBP OFO or are apprehended by U.S. Border
    Patrol. Asylum officers determine whether these applicants have a
    “credible fear” of persecution or torture if they are returned to their
    country of nationality. The credible fear standard has a low
    threshold to determine whether the case can be referred to an
    immigration judge for a full asylum hearing: 67% of applicants
    pass the screening standard. (See appendix D.) The forms of relief
    from removal available to credible fear applicants include asylum
    status (which can lead to lawful permanent resident status),
    withholding of removal, or relief under the Convention Against
    Torture.

    The second category is aliens who are not eligible for asylum but
    might be entitled to other forms of relief, such as withholding or
    deferral of removal. Asylum is not available to aliens who have a
    prior order of removal that is reinstated when they are apprehended
    or have been convicted of an aggravated felony in the United
    States. Some of these aliens are detained at a land border by U.S.
    Border Patrol or OAM; port of entry by CBP OFO; or along the
    coast by the Coast Guard. They may also be apprehended within
    the United States by other means, such as enforcement actions by

   Information Sharing on Foreign Nationals: Border Security

                           Page 21
 ICE HSI, or transfer from federal, state, or local prisons to ICE
 ERO custody for removal. If the aliens express a fear of
 persecution or torture after apprehension, they are referred to the
 asylum office for a “reasonable fear” determination.

 In the past year, there has been an increase in the number of
 reasonable fear cases, which asylum officers said might be a result
 of increased interior enforcement efforts by ICE. Asylum officers
 determine whether these applicants meet the reasonable fear
 standard, which has a higher threshold to determine whether the
 case can be referred to an immigration judge: 24% of applicants
 meet the screening standard. (See appendix D.) The forms of
 protection available to the reasonable fear caseload, if granted by
 an immigration judge, are generally intended to be temporary, until
 conditions in the country of nationality improve or a third country
 agrees to take the alien.

 Overall, relationships between the USCIS Asylum Division and its
 partners in CBP OFO, U.S. Border Patrol, ICE HSI, and ICE ERO
 are positive. Asylum officers told us that they are confident that
 CBP and ICE officers refer cases where the individual has
 expressed a fear of return, as well as some discretionary cases
 based on country of origin or unusual behavior. At the local level,
 each asylum office we reviewed offered training to CBP and ICE
 officers on recognizing potential cases. CBP and ICE officers we
 interviewed were familiar with the forms, procedures, and
 notification processes for asylum cases. Asylum offices had also
 developed information sharing mechanisms such as group
 mailboxes, checklists, and regular meetings to support the
 notification process. Asylum officers said that ICE officers readily
 facilitated interviews and would provide security for interviews
 with potentially violent applicants.

 We determined that the Asylum Division generally processes ICE
 ERO detainees for credible fear screening expeditiously. The
 Asylum Division strives to make a decision within 14 days of
 notification by ICE or CBP for at least 85% of cases. Based on
 data the Asylum Division provided us, from June 1, 2005, to June
 30, 2010, credible fear determinations were completed within 14
 days at least 90% of the time. Asylum Division headquarters
 reviews all credible fear denials, but only reviews grants and
 withdrawals in certain circumstances.

 In contrast, both field asylum officers and ICE ERO officers
 expressed frustration with the time it takes the Asylum Division to

Information Sharing on Foreign Nationals: Border Security

                        Page 22
 complete reasonable fear cases. During our fieldwork, there were
 no timeliness standards for completion of reasonable fear cases.
 Asylum officers said that with limited resources and no set
 deadlines, the Asylum Division delays reasonable fear interviews
 to keep current with other caseloads. Of the 4,532 reasonable fear
 cases processed from June 1, 2005, to June 30, 2010, asylum
 officers noted a delay caused by inadequate resources in 1,307
 cases, or 29%. Cases with available data took an average of 72
 days to complete, and 24% took more than 3 months to complete.
 (See appendix E.)

 In light of these timeliness issues, the ability of the Asylum
 Division to track reasonable fear case completions is essential. It
 is generally understood that the Asylum Division considers a
 reasonable fear case complete when the decision is served on the
 applicant by the Immigration Court, as indicated by the “Decision
 Served” field in the Asylum Pre-Screening System (APSS), but
 current reasonable fear procedures do not provide explicit
 instructions for APSS entries for all data fields. Improvements in
 data entry procedures could result in more effective overall case
 management, specifically in the areas of timeliness and
 completions. In particular, the procedures should direct users to
 use the date of service (“Decision served” in APSS) to
 communicate completion of the reasonable fear case (i.e., service
 of the positive or negative decision on the detainee, on ICE ERO,
 and on the Immigration Court) or to use the date the case is
 administratively closed (“Close Effective” date in APSS.)

 Each of the five asylum offices we visited identified the
 headquarters review process as a source of delay for completing
 reasonable fear cases. Asylum officers said that the quality
 assurance program was inadequately staffed for the sharp increase
 in reasonable fear cases, and that it prioritized credible fear cases
 over reasonable fear cases. At the time of our fieldwork, only
 credible fear denials were reviewed, but headquarters reviewed
 100% of grants, denials, and withdrawals for reasonable fear cases.
 For cases with available data, the headquarters review process for
 reasonable fear cases took an average of 29 days to complete. (See
 appendix E.) Information on how long the review process took for
 the remaining cases, including withdrawals, was not available.

 ICE officers at the detention facilities expressed frustration with
 the amount of time it took to resolve cases in the Asylum
 Division’s jurisdiction. One concern was with detainees who had
 asked to withdraw their applications to remain in the United States

Information Sharing on Foreign Nationals: Border Security

                        Page 23
                         and awaited permission to return home pending legal disposition of
                         their case. Some of this population are discontented about their
                         continued detention and are disruptive to other detainees. ICE
                         officers said that the daily cost of detention for each detainee can
                         range from $60 to more than $200. To detain an asylum applicant
                         for a month without an interview in addition to another month
                         without a final decision is an inefficient use of detention bed space.
                         Since asylum officers cannot predict with any certainty how long
                         each case will take, they cannot provide this information to ICE
                         ERO.

                         With limited asylum resources and no timeliness requirements,
                         Asylum Division delays in the reasonable fear caseload are a likely
                         result, but ICE ERO bears the costs of such delays. The Asylum
                         Division has tried to reduce delays before the initial interview.
                         Asylum officers are assigned permanently to some facilities with a
                         large caseload. Although asylum officers may schedule interviews
                         with less delay by video-teleconference, video-teleconferences
                         place an administrative burden on ICE ERO resources. During
                         video-teleconferencing interviews, at several points ICE ERO
                         officers must obtain and share files, receive faxed documents,
                         obtain signatures, and return completed faxed documents.

                         Timely interviews will have limited effect unless delays in the
                         headquarters review process are also addressed. In January 2011,
                         the Asylum Division issued two memorandums on the reasonable
                         fear process. The first memorandum instituted processing criteria
                         for reasonable fear cases that are similar to those used to measure
                         the credible fear cases. All negative determinations are still
                         reviewed, but only a sampling of positive determinations is
                         taken. 10 The second memorandum pertained to applicants who
                         have requested to withdraw their application. For these cases, new
                         headquarters review criteria for reasonable fear cases are now
                         comparable to the prioritized review criteria for credible fear cases.
                         Headquarters review is not required before the applicant is allowed
                         to withdraw, and quality assurance will be conducted on closed
                         cases. 11 Headquarters officers said that a goal for fiscal year (FY)
                         2011 was to identify timeliness criteria for the reasonable fear
                         caseload. Asylum officers indicated that headquarters was
                         developing a methodology to set these criteria.


10
   Revised Reasonable Fear Quality Assurance Review Categories, Memorandum from Joseph E. Langlois, 

HQRAIO 120/12.16a., January 10, 2011.

11
   Further Revised Reasonable Fear Quality Assurance Review Categories, Memorandum from Joseph E.

Langlois, HQRAIO 120/12.16a., January 28, 2011. 


                       Information Sharing on Foreign Nationals: Border Security

                                               Page 24
            We believe that the increased use of video-teleconferencing and
            the streamlined headquarters quality assurance process are key to
            improving the timeliness of reasonable fear adjudications. Field
            site visits by headquarters officers responsible for quality
            assurance and program management may assist in identifying
            training and guidance needs and in developing a practical
            methodology to set timeliness criteria.

     Recommendations
            We recommend that United States Citizenship and Immigration
            Services:

            Recommendation #4: Establish timeliness criteria for completing
            reasonable fear cases.

            Recommendation #5: Record in the Asylum Pre-Screening
            System database the date when each reasonable fear case is
            returned to U.S. Immigration and Customs Enforcement
            jurisdiction.


Multilateral Support Is Developing for Information Sharing
     Information sharing on foreign nationals at ports of entry and along the
     land and maritime borders is primarily the responsibility of the CBP
     Office of Field Operations, U.S. Border Patrol, ICE HSI, ICE ERO, the
     Coast Guard, and the USCIS Asylum Division. These components have
     legal authority and access to biometric and biographic data systems
     necessary to decide who is admitted or denied admission to the United
     States, apprehended and placed in immigration or criminal proceedings, or
     ultimately removed from the United States. As the December 2010 GAO
     report noted, many task forces, joint operations, and working groups led
     by ICE and CBP play a fundamental role in information sharing on foreign
     nationals and could be better coordinated. We reached the same
     conclusions. In addition, we observed that other DHS components have
     developed a geographic-based role, which is essential to coordination and
     communication on foreign nationals at ports of entry and land and
     maritime borders. Although the Coast Guard’s role in coordination and
     facilitation of law enforcement and interception activities in the maritime
     environment is the most complex of the components, its partners gave
     Coast Guard uniformly high marks for its information sharing. TSA’s role
     has expanded rapidly at commercial air ports of entry. TSA’s
     Coordination Centers are an innovative contribution to information
     sharing, but TSA involvement with foreign nationals at air ports of entry

          Information Sharing on Foreign Nationals: Border Security

                                  Page 25
                continues to evolve. Although the CBP AMOC under the OAM has a
                long history of support for border enforcement, its potential has not been
                fully developed.

                         CBP and ICE Border Security Operations Would Benefit
                         From DHS-Level Oversight

                         We described earlier the difficulties that arise from the overlapping
                         mandates of CBP and ICE, and the insufficient oversight and
                         direction available from DHS. Similar issues diminish the
                         effectiveness of two interagency forums: the Integrated Border
                         Enforcement Team (IBET) and Border Enforcement Security Task
                         Force (BEST). 12 IBET is a cooperative binational initiative that
                         secures the border between Canada and the United States by
                         identifying, investigating, and interdicting persons, organizations,
                         and goods that are involved in organized criminal activity. 13 BEST
                         is a binational forum led by ICE to identify, disrupt, and dismantle
                         criminal organizations that pose a significant threat to border
                         security. 14 In its December 2010 report on northern border security,
                         GAO concluded that these forums have enhanced information
                         sharing, but also compete for resources and have overlapping
                         missions and areas of operation. GAO noted that northern border
                         partners cited challenges to allocate sufficient resources for the
                         growing number of interagency forums that have been established in
                         their geographic area of responsibility.

                         Based on our site visits and interviews with the U.S. Border Patrol
                         and ICE personnel on the northern border, we share GAO’s
                         conclusions. On our site visits to the southern border, where there is
                         no IBET presence, similar concerns were expressed about how to
                         staff the BEST task forces and the activities of an ICE-led mission.
                         Although DHS attempts to maximize its presence on the northern
                         and southern borders through interagency forums, concerns were
                         raised regarding duplication and overlapping missions. Some of the
                         ICE HSI and the U.S. Border Patrol agents we interviewed in the
                         field and at headquarters said that the only way to address tensions
                         between ICE HSI and the U.S. Border Patrol is by establishing clear
                         DHS-level guidance on missions and priorities.

                         The GAO December 2010 report recommended that DHS provide
                         DHS-level guidance and oversight for interagency forums

12
   Border Security: Enhanced DHS Oversight and Assessment of Interagency Coordination Is Needed for 

the Northern Border (GAO-11-97) December 2010. 

13
   http://www rcmp-grc.gc.ca/ibet-eipf/index-eng.htm. 

14
   http://www.ice.gov/best/. 


                       Information Sharing on Foreign Nationals: Border Security

                                               Page 26
                        established or sponsored by its components to ensure that the
                        missions and locations are not duplicative and to consider the
                        downstream burden on northern border partners.

                        DHS concurred with this recommendation, but said that the
                        structure of the Department precludes accomplishing the goal of
                        DHS-level guidance and oversight through a single headquarters
                        organization. It said that through strategic and operational
                        planning efforts, DHS will review the inventory of interagency
                        forums to assess efficiency and identify challenges. GAO
                        responded that it encouraged DHS to “provide the guidance and
                        oversight necessary” to mitigate duplicative efforts. 15

                        We believe that GAO’s recommendation, if implemented as GAO
                        envisaged, would address many of the tensions between the U.S.
                        Border Patrol-coordinated and ICE HSI-led interagency forums on
                        both borders. Direct DHS-level guidance and oversight is
                        necessary to establish clear goals and priorities to facilitate
                        cooperation and coordination.

                        U.S. Coast Guard Provides Information and Support When
                        Coordinating With Multiple Agencies

                        With the exception of its migrant interdiction mission, the Coast
                        Guard’s role in information sharing on foreign nationals is an
                        indirect consequence of its missions to defend ports, waterways,
                        and coastal areas; conduct search and rescue operations; and
                        conduct drug interdiction. Nonetheless, the Coast Guard’s strategy
                        to fulfill its missions has made it an integral component of DHS
                        information sharing on foreign nationals in the maritime
                        environment.

                        The Coast Guard has established efficient and effective programs
                        and processes to share information among DHS components when
                        they encounter foreign nationals at sea ports of entry. The Coast
                        Guard has stations at most of the coastal and maritime locations
                        that are critical to border security, including the rivers and Great
                        Lakes that separate the northeastern United States from Canada,
                        and major coastal cities such as Miami, New York City, San
                        Diego, and Seattle.

                        The Coast Guard has developed collaborative information sharing
                        relationships with other DHS components and interagency
15
  Border Security: Enhanced DHS Oversight and Assessment of Interagency Coordination Is Needed for
the Northern Border (GAO-11-97) December 2010.

                       Information Sharing on Foreign Nationals: Border Security

                                               Page 27
 partners. At each coastal and maritime site we visited, the Coast
 Guard played a key role in facilitating joint law enforcement
 operations. Central to the success of these operations is that they
 host multiagency partnerships that are located onsite to enhance
 information sharing capabilities. For example, at major ports, such
 as New York City, San Diego, and Seattle, the Coast Guard
 facilitates Joint Harbor Operations Centers. These centers
 coordinate as many as 50 federal civilian and military, state, local,
 and business entities involved in commercial and recreational
 maritime transport and in provisions for safety and security. In the
 Los Angeles/San Diego area, the Coast Guard hosts the Maritime
 Unified Command, an innovative multiagency partnership that
 facilitates information sharing and coordination with multiple
 agencies on missions related to maritime activities.

 The Coast Guard and CBP pool resources to assess passengers and
 crews of cruise and cargo ships. The Coast Guard receives
 manifests of passengers and crews of vessels via the Ship Arrival
 Notification System, and works with CBP OFO to screen and
 cross-check information against CBP data systems, such as TECS.
 The Coast Guard has jurisdiction to board vessels to conduct safety
 and security checks, and routinely brings CBP OFO officers on
 board to assist with the evaluation of passengers and crew. With
 CBP on site at Joint Harbor Operations Centers and Coast Guard
 Stations, the Coast Guard can obtain timely information on foreign
 nationals from a broad range of databases.

 As much through voluntary integration as through regulatory
 requirements, the Coast Guard has become an essential element of
 information sharing on foreign nationals. At harbors and ports, the
 Coast Guard assists TSA with the examination of Transportation
 Worker Identification Credential cards issued by TSA to workers
 who have unescorted access to secure areas of ports and harbors.
 The U.S. Border Patrol works closely with the Coast Guard to
 identify persons rescued or apprehended at sea. The Coast Guard
 provides logistics and vessels for many joint investigative and
 interception activities on the northern and southern maritime
 borders, such as joint operations by the U.S. and Canadian
 governments to board vessels, IBET interception operations, and
 BEST investigations.

 Through its coordination centers and joint operations, the Coast
 Guard has enhanced information sharing on foreign nationals. At
 each site we visited, CBP and ICE praised the Coast Guard for its
 ability to both organize command and communication facilities

Information Sharing on Foreign Nationals: Border Security

                        Page 28
 and work cooperatively in shared areas of responsibilities. Both
 the Coast Guard and its partners identified the Coast Guard’s
 clearly delineated role at maritime borders as a central reason for
 its success in joint operations: Although the Coast Guard may
 apprehend foreign nationals, it partners with CBP or ICE to
 determine their status.

 TSA Coordination Centers Provide Real-Time Readiness and
 Awareness

 TSA Coordination Centers play an increasing role in information
 sharing on foreign nationals in commercial airports. The centers
 are a 24/7 information hub for the majority of TSA’s operations,
 with national real-time information sharing through the Domestic
 Event Network and a dedicated telephone network that links the
 centers. The Domestic Event Network enables TSA officers to
 listen to events nationwide as they happen and determine quickly
 whether an event is an isolated local incident or a coordinated
 disruption. The centers are one-stop shops for information used by
 TSA and its federal, state, and local agency partners.

 Transportation Security Officers screen information in real time
 from available data systems, evaluate the information, and
 determine any interrelationships, including those that relate to the
 affected transportation modes.

 Each Coordination Center uses a system of notification matrices to
 distribute information on all incidents that occur at the airport. The
 notification matrix is a quick reference guide for Transportation
 Security Officers to determine the component and method to
 contact based on the severity of the incident. The notification
 matrix is developed in cooperation with the component that
 receives the notification. For example, CBP OFO can specify that
 it wants immediate telephone notification for a no-fly match, while
 ICE HSI can specify that it would prefer email notification after
 the fact for routine confiscation of weapons. The notification
 system has reduced information sharing stovepipes and formalized
 appropriate incident response.

 Nonetheless, we observed major challenges at some of the
 Coordination Centers. Staffing has not increased commensurate
 with the additional workload from the expansion of the no-fly
 watch lists in early 2010.




Information Sharing on Foreign Nationals: Border Security

                        Page 29
Recommendations
    We recommend that the Transportation Security Administration:

    Recommendation #6: Provide all Coordination Centers with live
    video feeds from security cameras in the airport terminals.

    Recommendation #7: Provide all Coordination Centers with
    access to federal law enforcement data systems.




   Information Sharing on Foreign Nationals: Border Security

                           Page 30
 Increased Outreach Effort Is Needed at the Air and Marine
 Operations Center To Advance Current and Future Expansion
 Initiatives

 The AMOC, in Riverside, California is an operational domain
 awareness center within CBP OAM. The center was established in
 1988 as a state-of-the-art law enforcement radar surveillance center
 to counter the threat of airborne drug smuggling.

 Although OAM, including the AMOC, has limited involvement
 screening foreign nationals, the information that the center provides
 to enforcement officers is valuable to border security. The center
 has a wide range of responsibilities that include detection and
 coordination efforts for OAM. The center also provides aerial
 coverage during natural disasters and humanitarian relief efforts,


                                                and assistance to the
 U.S. Secret Service with fly-over operations for national special
 security events.

 The technologies that enable the center to provide such support
 include a surveillance system capable of integrating an extensive
 network of ground-based and airborne radar, aerial imaging, and
 streaming video and data from manned and unmanned aerial
 surveillance vehicles, which can observe and record aircraft and
 cross-border activity. Figure 1 illustrates some of the information
 and data sources the AMOC uses.




Information Sharing on Foreign Nationals: Border Security

                        Page 31
                         Figure 1. Air and Marine Operations Center Sources of Information and Data




                 Source: CBP Air and Marine, Federal Aviation Administration Unmanned Aircraft
                 System Tech Conference 16

                         The center’s database includes all registered flights and is therefore
                         able to identify unregistered flights and flights that do not follow
                         their registered flight plan. The center observes more than 1,000
                         flights a day and can closely track small aircraft that have
                         anomalous flights. The center also has some ability to track ships
                         in U.S. territorial waters.

                         With these capabilities, the center is uniquely qualified to support
                         CBP, ICE, and other law enforcement entities with information
                         sharing on foreign nationals who attempt to enter or exit the United
                         States illegally between ports of entry. Illicit cross-border
                         activities may involve smuggling drugs, cash, and weapons, as
                         well as human trafficking. When the center identifies a plane with
                         an unregistered flight plan, OAM launches aircraft to classify the
                         target of interest. It also, if necessary, coordinates with ICE HSI or
                         the U.S. Border Patrol to check whether the flight termination is a
                         drop-off for contraband or illegal aliens. When OAM identifies
                         individuals crossing the border between ports of entry, the center
                         can notify the appropriate law enforcement organization of their
                         approximate location so they can be apprehended. If ICE plans to
                         prepare a court case that involves alien smuggling or trafficking,

16
  CBP Air and Marine, FAA UAS Tech Conference, January 2007. 

http://www faa.gov/news/conferences_events/new_tech_2007/presentations/media/day2/pitts.ppt. 


                       Information Sharing on Foreign Nationals: Border Security

                                               Page 32
 the center can provide radar and video surveillance footage 

 captured by OAM aircraft as forensic evidence. The center can 

 also notify law enforcement entities of the presence of an 

 unidentified ship in U.S. territorial waters.


 The center has offered its services and resources to components
 within and outside DHS. The center’s wealth of information,
 expertise, and resources can be a valuable asset to DHS
 components and other border security agencies. The information
 available to the center through its radar surveillance and access to
 detailed video imagery is an information sharing force multiplier
 for other law enforcement officers in their investigations and
 interceptions of foreign nationals.

 Despite these assets and information sharing efforts, DHS
 components do not fully understand or use the center’s capabilities.
 Center officials told us that although it has primary responsibility
 to monitor general aviation, more than 50 international, federal,
 state, and local agencies are involved in air domain activities, and
 these agencies do not always communicate and coordinate
 effectively. Even within the federal government, although the
 center has developed a complementary relationship with the Drug
 Enforcement Administration-led government-wide El Paso
 Intelligence Center, it had to deconflict overlapping missions with
 a newly developed intelligence section in the TSA Transportation
 Security Operations Center.

 Overall, the center has established effective relationships with the
 U.S. Border Patrol and ICE HSI when they request assistance on a
 specific interception or investigation. However, when the center
 develops its own leads based on suspicious flight patterns or border
 crossings, it may contact several DHS entities, as well as other
 federal, state, and local partners, to find a law enforcement
 organization with resources to follow through on the information.

 Center officials and liaisons said that their capabilities are not
 widely known throughout all the other DHS components. They
 also told us that the center’s role to monitor general aviation and
 assist in investigations is not widely understood. Officials said that
 their efforts to promote their capabilities and services to other
 federal, state, local, and tribal law enforcement entities have had
 limited success. Center employees also told us that their priorities
 and mission are not well defined or well aligned with those of the
 DHS components and other agencies they support. The center has
 experienced difficulty recruiting liaisons and balancing its needs

Information Sharing on Foreign Nationals: Border Security

                        Page 33
     with those of the liaisons’ home agencies. Some officials
     expressed the opinion that its operations would be better utilized if
     the entire air and marine program were directly under DHS
     leadership.

     Most DHS joint operations are housed within one DHS
     component, and some, such as the Coast Guard operations
     discussed above, are quite successful. We therefore do not
     recommend that the AMOC be relocated within DHS. However,
     we consider that CBP could, at the headquarters level, provide
     additional support to the center’s outreach efforts to become more
     useful in border security and information sharing initiatives. We
     also believe that the center would benefit from DHS-level
     guidance in establishing priorities and better defining the role of
     DHS liaisons.

Recommendation
     We recommend that United States Customs and Border Protection:

     Recommendation #8: Provide federal law enforcement agencies
     updated training or guidance on the operational capabilities the Air
     and Marine Operations Center offers to support border security
     initiatives.


Management Comments and OIG Analysis
     A copy of the Department response is included as appendix B.

     The Department concurred with five of our eight 

     recommendations. A summary of the Department response to each 

     recommendation, and our analysis, is included below. 


     Recommendation #1: Fully terminate the National Security 

     Entry-Exit Registration System and reinstate the prior provisions. 

     Management Response
     The Department said that the Secretary’s authority, as exercised
     under the NSEERS regulations, is broader than the information
     collection program based on country designation described in our
     draft report. The Secretary has chosen to retain this regulatory
     framework to enable prompt action to require registration of a
     category or categories of aliens, if necessary, through rapid
     publication of a Federal Register Notice. The Department noted
     that the retention of this regulatory framework has no direct cost to

   Information Sharing on Foreign Nationals: Border Security

                           Page 34
 the Department, while a formal rulemaking to rescind the
 regulations would be costly and time consuming, with the
 possibility that additional costly and time-consuming rulemaking
 would be necessary if registration were needed in the future. The
 Department would keep the regulation in place to ensure that the
 Secretary retains the authority in case it is needed in the future.
 OIG Analysis
 The Department did not concur with Recommendation #1. We
 determined that the Department is making a reasonable policy
 determination to maintain the existing regulatory framework.
 However, there are deficiencies and inefficiencies in the data
 system that was established to track NSEERS data. The
 availability of newer, more capable, DHS data systems argues
 against ever utilizing the NSEERS data system again. It is possible
 that the Department does not disagree, and is simply preserving the
 NSEERS regulatory framework, but would employ the modern
 data systems if it decides someday to require the initiation of some
 new kind of registration program.
 Recommendation #2: Collaborate with commercial airlines and
 develop solutions to reduce the incidence of duplicate flight
 manifests.
 Management Response
 The Department concurred with Recommendation #2. CBP has
 implemented the Flight Close Out message process whereby
 carriers are required to identify who is on the aircraft. CBP
 described the process as reconciliation of the APIS records
 transmitted and distinguishing passengers on board the aircraft
 from those who were transmitted but did not board the aircraft.
 CBP said this effort assists the officers in identifying which set of
 biographic information should be used in the screening process.
 The changes are designed to enhance the officer’s ability to screen
 the correct manifest entry by identifying which set of information
 represents the traveler on board the aircraft; correcting the system
 error that prevented lookouts from displaying when duplicated
 manifests entries existed; and removing from primary processing
 the records of passengers identified as not on board to ensure that
 officers are processing only the screened passenger data.
 OIG Analysis
 CBP’s actions are consistent with the intent of the 

 recommendation. In the corrective action plan, CBP should 


Information Sharing on Foreign Nationals: Border Security

                        Page 35
 provide further details of the discussions with commercial airlines
 to reduce the incidence of duplicate flight manifests. A
 collaborative approach with commercial airlines is necessary.
 CBP relies on the information submitted by commercial airlines to
 conduct the screening process. Additional information that might
 be included in the corrective action plan includes the following:

          The status of resolving the duplicate flight manifests
          problem identified in the OIG report;

          Whether terminating the transmittal of information via
          APIS Quick Query will eliminate duplicate flight
          manifests; and

          Information as to whether officers can submit multiple
          lookouts via TECS on the same passenger with a different
          passenger record or unique locator.
 Recommendation #3: Establish department-level oversight to
 address Customs and Border Protection, Office of Border Patrol,
 and Immigration and Customs Enforcement, Homeland Security
 Investigations operational challenges.
 Management Response
 The Department concurred with Recommendation #3. The
 Department stated that it exercises its oversight and coordination
 responsibility through a variety of forums. These include the
 Information Sharing Governance Board; the Department’s Law
 Enforcement Information Sharing Initiative Executive Director;
 and the Interagency Northern Border Counter Narcotics Strategy.
 Both the U.S. Border Patrol and ICE HSI will implement the
 following corrective actions:

          Regular collaboration on quarterly joint intelligence threat
          assessments by geographic area to identify and prioritize
          specific threats common to both agencies;

          Joint operational planning to disrupt and mitigate priority
          threats identified in the threat assessments;

          Formalization of a joint information and data sharing
          protocol, to include shared access to agency-specific data
          systems; and



Information Sharing on Foreign Nationals: Border Security

                        Page 36
          Identification of specific objectives within Customs and
          Border Protection to bridge the identified gaps between
          intelligence gathering and operations requiring short-term
          investigations.
 OIG Analysis

 We believe that the Department’s effort will improve coordination
 between the U.S. Border Patrol and ICE HSI. In the corrective
 action plan, please provide, for each of the four areas listed above,
 the following: copies of memorandums, meeting minutes,
 intelligence and strategic planning reports, threat assessments, and
 any other evidence.
 Recommendation #4: Establish timeliness criteria for completing
 reasonable fear cases.

 Management Response

 The Department concurred with Recommendation #4. The
 Department stated that in FY 2011, Headquarters Asylum
 established a performance measure that 85% of reasonable fear
 cases must be completed within 90 days beginning with the referral
 date of the case from ICE ERO and ending with the case
 completion date within the Asylum Office. Also, an additional
 performance measure requires that 95% of pending reasonable fear
 cases must not be pending for more than 150 days and that updates
 be provided every 30 days thereafter regarding the progress on
 resolving the issues preventing decision issuance.

 For FY 2012, Headquarters Asylum has developed two initiatives.
 The first initiative will implement Refugee, Asylum and
 International Operations Directorate Quality Assurance (RAIO
 QA) review of reasonable fear determinations and pilot RAIO QA
 review of credible fear determinations. The second initiative
 consists of implementing the two performance goals stated above.
 In addition, Headquarters Asylum plans to modify APSS,
 reasonable fear procedures, and weekly reports in order to further
 standardize APSS data entry and to assist Asylum Offices with the
 timely completion of reasonable fear determinations.
 OIG Analysis
 In the corrective action plan, please provide the FY 2012 annual
 memorandum to Asylum Office Directors outlining each Asylum
 Office’s performance objectives for the fiscal year to improve the
 processing of reasonable fear determinations.

Information Sharing on Foreign Nationals: Border Security

                        Page 37
 Recommendation #5: Record in the Asylum Pre-Screening 

 System database the date when each reasonable fear case is 

 returned to U.S. Immigration and Customs Enforcement 

 jurisdiction.

 Management Response
 The Department did not concur with Recommendation #5. During
 the fieldwork stage, we identified a perceived data deficiency in
 the APSS database resulting in the Asylum Division being unable
 to assess reasonable fear case completions. After the exit
 conference, we requested clarifications on the data field
 determined to be deficient. USCIS said that it has a method to
 record and assess reasonable fear timeliness and completions.
 OIG Analysis
 USCIS believes that alternate data entry capabilities and recently
 implemented procedural changes are responsive to the intent of the
 recommendation. The action the Asylum Division describes does
 not specify whether Asylum Officers are recording when each
 reasonable fear case is returned to ICE jurisdiction within the
 APSS database. In the corrective action plan, please provide
 copies of the data fields within APSS and procedures requiring
 Asylum Officers to complete the data fields necessary to track
 timeliness and completions of reasonable fear determinations.
 Upon receipt of the corrective action plan, we anticipate closing
 this recommendation.
 Recommendation #6: Provide all Coordination Centers with live
 video feeds from security cameras in the airport terminals.
 Management Response
 The Department concurred with Recommendation #6. The
 Department said that the Coordination Center is the primary
 communication hub for all TSA activity within the Federal
 Security Director domain. The Department recognizes that the
 Coordination Centers play an important role in information sharing
 on foreign nationals in airports. The Department reported that
 access to closed-circuit television is coordinated on the local level
 through TSA, airport operator, and other entities with a need to
 know. However, because TSA does not own the closed-circuit
 television equipment, granting access to the Coordination Center is
 logistically challenging. The Department stated that in order to
 fully maximize the Coordination Centers' one-stop shop of
 information for TSA and its federal, state, and local agency

Information Sharing on Foreign Nationals: Border Security

                        Page 38
 partners at the local level, TSA will consider the resources 

 available and whether or not it can expand such access.

 OIG Analysis
 In the corrective action plan, please provide copies of the proposals
 submitted to airport owners where a Coordination Center is
 located, requesting access to closed-circuit television.
 Recommendation #7: Provide all Coordination Centers with 

 access to federal law enforcement data systems. 

 Management Response
 The Department did not concur with Recommendation #7. TSA
 stated that access to criminal records is controlled by statute,
 regulations implemented by the Department of Justice, state laws,
 and policy. Therefore, TSA's ability to conduct a name-based
 criminal records check would depend on the reason for the search
 and type of activity taking place at a Coordination Center. TSA
 noted that, while expanded access to federal law enforcement data
 systems is an overall TSA goal, pushing access to federal law
 enforcement information sources to the Coordination Centers is not
 the most effective solution. The primary role of the Coordination
 Centers is to provide local support to TSA daily mission operations
 while monitoring transportation-related information sources within
 airports. Coordination Centers work in concert with TSA's
 Transportation Security Operations Center, which is charged with
 providing 24/7/365 coordination, communications, intelligence,
 and domain awareness for all DHS transportation-related security
 activities worldwide. When managing an incident requiring
 coordination with federal law enforcement or other specialized
 database checks, Coordination Centers are expected to contact the
 Transportation Security Operations Center to obtain this
 information. This ensures that TSA handles information in
 accordance with relevant criminal history record information based
 on law and policy.
 OIG Analysis
 TSA states that the primary role of the Coordination Centers is to
 provide local support to TSA daily mission operations while
 monitoring transportation-related information sources within
 airports. Coordination Centers play a critical role in information
 sharing on foreign nationals. However, without direct and real-
 time access to federal law enforcement data systems, the centers
 are hindered in gathering and disseminating information that may

Information Sharing on Foreign Nationals: Border Security

                        Page 39
 adversely affect transportation modes. TSA’s overall goal is to
 expand access to federal law enforcement data systems, but
 statutes and regulations restrict access to criminal records. To
 resolve this issue, we encourage TSA to request a permanent
 Coordination Centers liaison from CBP OFO to improve TSA’s
 access to timely information on foreign nationals via federal law
 enforcement data systems when a need to know is established.
 Both CBP and TSA officials have stated that they would like TSA
 to use DHS systems, particularly TECS, to obtain and share
 information. This collaboration between CBP and TSA would
 further strengthen aviation security and expand local support
 within the airport environment, eliminate delayed responses in an
 emergency, and improve information sharing between the
 components.
 Recommendation #8: Provide federal law enforcement agencies
 updated training or guidance on the operational capabilities the Air
 and Marine Operations Center offers to support border security
 initiatives.
 Management Response
 The Department concurred with Recommendation #8. CBP stated
 that a strategic goal of CBP’s AMOC is to continue to strengthen
 interagency and component partnerships to maximize homeland
 security strategies. One objective of AMOC is to continue to
 promote its missions, capabilities, and operations across
 components and interagency organizations. AMOC hosts more
 than 2,500 visitors annually from various law enforcement
 agencies to which it provides information regarding AMOC
 capabilities. Training is accomplished at law enforcement
 conferences; intelligence meetings; dedicated training on air
 smuggling laws, authorities, and current indicators; as well as
 dedicated AMOC training held at the Federal Law Enforcement
 Training Center.
 OIG Analysis
 CBP’s plans are responsive to the recommendation. Its efforts to
 inform partners about AMOC’s domain awareness capabilities will
 lead to better cooperation and understanding of AMOC’s role in
 border security. In the corrective action plan, please provide
 copies of meeting minutes, memorandums, outreach program
 agendas, invitations, training manuals, and other evidence to
 indicate that AMOC regularly meets with other components and
 partners at the state and local levels to promote its operational
 capabilities.

Information Sharing on Foreign Nationals: Border Security

                        Page 40
Appendix A
Purpose, Scope, and Methodology

                   We initiated this review to assess how biometric and biographic
                   information is shared among DHS components at the U.S. air,
                   land, and sea ports of entry, and land and maritime borders,
                   focusing on—

                           How components check and evaluate information when
                           they make border determinations on foreign nationals who
                           seek admission to the United States;
                           The timeliness and thoroughness of information sharing;
                           Interpersonal relationships among DHS components; and
                           Infrastructure and resources challenges.

                   This is the second of three reports on information sharing among
                   DHS components when they encounter a foreign national. The
                   third report will examine information sharing on foreign nationals
                   who are already inside the United States, both legally and illegally.
                   Although our recommendations addressed resource challenges and
                   professional relationships among DHS components, we limited the
                   scope of this report to initiatives to screen foreign nationals at a
                   U.S. port of entry or when they are apprehended between ports of
                   entry. We did not review measures for U.S. citizens, except for
                   programs that cover all travelers, and we did not evaluate cargo
                   screening or agricultural inspection programs. We did not focus
                   on privacy, civil rights, civil liberties, or redress aspects of the
                   systems or processes. We wrote recommendations to improve
                   communication and cooperation, policy and procedures, and
                   timeliness and thoroughness of information sharing among DHS
                   components.

                   We conducted fieldwork for this report from August to December
                   2010. We conducted 57 individual and group interviews with
                   DHS personnel. We interviewed personnel from five DHS
                   operational components—CBP, the Coast Guard, ICE, USCIS, and
                   TSA—as well as personnel from the headquarters support office,
                   Office of Policy. We reviewed documentation provided by DHS
                   components and viewed many data systems demonstrations.




                 Information Sharing On Foreign Nationals: Border Security

                                         Page 41
Appendix A
Purpose, Scope, and Methodology

                   We conducted site visits to the following DHS offices:




                   During our field visits, our inspectors observed—

                           CBP OFO’s primary and secondary inspections at various
                           land, sea, and air port of entry
                           CBP OFO’s Passenger Analysis Units at air ports of entry
                           U.S. Border Patrol’s operations
                           CBP Air and Marine Operations Center
                           CBP outbound passenger screening procedures
                           The Coast Guard Vessel Screening program and Joint
                           Harbor Operations Centers
                           ICE ERO detainee intake procedures
                           TSA’s Operation Playbook exercises

                   We also conducted interviews with—

                           USCIS Asylum Officers responsible for credible and
                           reasonable fear processing
                           CBP Air and Marine agents
                           ICE HSI agents

                   This review was conducted under the authority of the Inspector
                   General Act of 1978, as amended, and according to the Quality
                   Standards for Inspections issued by the President’s Council on
                   Integrity and Efficiency.




                 Information Sharing on Foreign Nationals: Border Security

                                         Page 42
Appendix B
Management Comments to the Draft Report


                                                                                    U.5.lkpon",••, of 11_....., s...rl<y
                                                                                    W.. ~i"JI..., DC lf5U


                                                                           ~Homeland
                                                                           V            Security
         MEMORANDUM FOR:


         FROM:


         SUBJECT:




         Thank you for lhe opportWlity to review and respond to the Office oflnspt<:lOr General's (OIG)
         Draft Report entitled, "Infonnation Sharing on Foreign Nationals: Border Security," (OIG-09-
         132a-[SP-DHS, Phase II). This memorandum is in response to your requestlhatthe Department
         of Homeland Security (DHS) Office of Policy (PLCY), in coordination with Transportation
         Security Administration (TSA), U.S. Customs and Border Protection (CSP), and United States
         Citizenship and Immigration Service (USClS) respond to lhe recommendations contained in the
         report.

         lbis draft report provides analysis on infonnation sharing among DHS components with border
         security missions and evaluates lhe timeliness and quality ofinfonnation shared through DHS
         data systems and through communication among DHS component agencies. It also discusses
         how interagency working relationships affect operations to screen and process foreign nationals.

         010 acknowledges in lhe report that DHS has invested considerable resources to improve
         staffing and infiastructure, such as software to consolidate data systems. However, the 0[0
         states that there is more work to be done in the area or resource allocation and prioritization in
         order to further improve upon infonnation sharing.

         The Department generally concurs with five of the eight recommendations and appreciates the
         opportunity to comment on the draft report. Listed below are the eight OIG recommendations
         and corresponding OilS responses.

         ReeommendltioD 1'1: Fully tenninate the National Security Entry-Exit Registration System and
         reinstate the prior provisions.

         DHS Response: Non-Concur. The National Security Entry-Exit Registration System
         (NSEERS) regulations were promulgated in the immediate aftermath of91l1 by a fonnal
         rulemaking under the Administrative Procedure Act. This rulemaking was an exereise of the
         Attomey General's authority to require aliens to register in order to bener protect the United
         Slates. From March 1,2002 through April 28. 2011, the !kcrclary of Homeland Security
         exercised this authority primarily through country designations requiring information collection




                      Information Sharing On Foreign Nationals: Border Security 


                                                      Page 43

Appendix B
Management Comments to the Draft Report




        by the NSEERS program. The Secretary, in her sole discretion, chose to end the collection of
        information under country designations by means of an April 28, 2011, Federal Register Notice.

        The Secretary's authority, as exercised under the NSEERS regulations, is broader than the
        information collection program based on country designation described in the Office of Inspector
        Genel'lll's draft report. The Secretary has chosen to retain this regulatory framework to enable
        prompt action to require registration ofa category or categories of aliens, if necessary, through
        rapid publication of a Federal Register Notice. The retention of this regulatory framework has
        no direct cost to the Depanment while a formal rulemaldng to rescind the regulations would be
        costly and time consuming now, with the possibility that another costly and time consuming
        rulemaking would be neeessary if specific registration was needed in the future. Indeed, in light
        of the legally required time to promulgate new regulations, it might not be possible to reestablish
        a categorical registration regime in time fully to protect the United States from a future, perhaps
        imminent threat. The regulation is being kept in place to ensure that the Secretary retains a legal
        discretionary regulatory framework in case it is needed in the future.

        Recommendation 112: Collaborate with commercial airlines and develop solutions to reduce the
        incidence of duplicate flight manifests.

        DHS ResROnse: Concur. CBP believes that it has successfully implemented this
        recommendation and respectfully requests closure. Duplicate manifests 8TC largely a result of the
        implementation oftne TSA Secure Flight program. CBP has taken several steps to resolve the
        issues identified in this finding. As part oftne DHS One Solution process, carriers transmit data
        to the DHS for both the CBP Advance Passenger Information System (APIS) and TSA Secure
        Flight programs. Secure Flight and APIS have different time requirements that often result in
        carricrs providing manifest information multiple times from multiple systems for the same
        passenger.

        In 2009, cap began receiving passenger transmissions 72 hours prior to departure due to TSA's
        Secure Flight requirement, as well as completed and validated APIS transmissions. CBP
        immediately identified the large numbers of duplicate records since several carriers' systems did
        not have the technical ability to link 72-hour data with tlte completed APIS manifest submissions
        for the same passenger and assisted the carriers with technical solutions to the duplication issue.
        CBP implemented thc Flight Closc Out message process whereby carriers are required to
        identity who is on the aireraft. The Flight Closc Out message reconciles the APIS records
        transmitted and identifies those passengers on board the aircraft from those that were transmitted
        but did not board the aircraft. This assists the officers in identifying which set ofbiographie
        information should be used in the screening process.

        cap has implemented changes to enhance the officer's ability to screen the correct manifest
        entry by identifying whieh set of information represents the traveler on board the aircraft;
        eorreeted the system error that prevented lookouts from displaying when duplicate manifest
        entries existed; and removed thosc records identified as not on board from primary processing to
        ensure officers are processing only the sereened passenger data.




                                                                                                          2




                       Information Sharing on Foreign Nationals: Border Security 


                                                     Page 44

Appendix B
Management Comments to the Draft Report




        Recommendation #3: Establish department-level oversight to address Customs and Border
        Protection, Office of Border Patrol, and Immigration and CuslOms Enforcement Homeland
        Security Investigations operational challenges.

        DHS Re~ponse: Concur. 1ne Department cOntinues 10 exercise ils oversight and coordination
        responsibility. This capability is presently carried out through a variety of fora and is be=ming
        more robust as the Department matures. Of particular note, given the focus of this report, is the
        Information Sharing Governance Board (ISGB), which is a principal-level, Department-led
        coordination body. The ISGB serves as the executive-level decision-making body for all DHS
        information sharing matters. Chaired by the Under Secretary for Intelligence & Analysis, the
        ISGB includes DHS operational and headquarters elements. lbe ISGB meets quarterly 10
        provide support for the Departmem's information sharing programs and participation in the
        National Information Sharing Environment (ISE). Furthermore, DliS selected a Senior
        Executive Level Manager to serve as the Department's Law Enforcement Information Sharing
        Initiative (LEISI) Executive Director. This selection demonstrated the importance and priority
        that DHS has placed on sharing of law enforcement information through various programs such
        as the LEIS Service, which has to date, been deployed in multiple locations in the United States
        and greatly enhances law enforcement sharing within all levels and entities of US and tribal law
        enforcement. DHS LEISI CQntinues to be an active advocate for law enforcement information
        sharing within DHS and its CQmponents, and repeatedly coordinates throughout the law
        enforcement CQmmunity to improve the understanding of information needs. Additionally, DHS
        LEISI provides important leadership in resolving policy issues that may inhibit law enforcement
        information sharing and strives to develop approaches to overcome traditional barriers to
        information sharing. Additionally, and with specific regard to the U.S. Northern Border, DHS
        will soon release its Northern Border Strategy and the Office of National Drug Control Policy
        (ONDCP) will soon release the Interagency Northern Border Coumer Narcotics Strategy. These
        strategies will lay the groundwork, which will allow DIIS to better coordinate internally between
        CBP, ICE, and components; to identify both gaps and duplication; and to achieve effective and
        efficient northern border management. Through these and other similar activities, the
        Depanment is strengthening its oversight and coordination responsibilities.

        With respect to the particular coordination issues raised, CBP and ICE will be laking the
        following corrective actions:

               - U.S. Border Patrol and ICE Homeland Security Investigations (liS I) will regularly
               collaborate on quarterly joim intelligence threat assessments by geographic area 10
               idemify and prioritize specific threats common to both agencies.

               - U.S. Border Patrol and ICE HSI will jointly plan operations and allocate resources to
               disrupt and mitigate priority threats identified injoint assessments.

               - U.S. Border Patrol and ICE HSI will formalize ajoint information and data sharing
               protocol, to include shared access to agency-specific data systems.

               - U.S. Border Patrol will cooperate to identify specific objectives within Customs and
               Border Protection to bridge the identified gap between intelligence gathering and
               operations requiring short-term investigations. This will allow for the efficient utili:l.lltion

                                                                                                              3




                      Information Sharing on Foreign Nationals: Border Security 


                                                     Page 45

Appendix B
Management Comments to the Draft Report




                of organic resources within Customs and Border Protection, while allowing Homeland
                Security Investigations to focus more of their resources on their mission priorities.


         Recommendation #4: Establish timeliness criteria for completing reasonable fear eases.

         PHS RUDonse: Concur. For Fiscal Year 2011, the Asylum Division in USCIS established a
         key initiative, "Eslahlish a lime/inen standard/or reasonable fear case!." Pursuant to this key
         initiative, Headquarters Asylum (HQASM) consulted with the Asylum Offices and subsequently
         developed and executed a survey gathering descriptions of processing problems causing delays,
         the lengths, sources, and frequencies of lOOse delays and other feedback. HQASM analy-l.ed
         reports ofcase processing data from the Asylum Pre-SCrealing System (APSS) to assist in
         determining standards and benchmarks for the reasonable fear process.

         In accordance with the Fiscal Year 2011 key initiatives, HQASM established the performance
         measure that 85% of reasonable fear cases must be completed within 90 days. This will measure
         the time between the referral date of the case from U.S. Immigration and Customs Enforcement
         (ICE) Enforcement and Removal (ERO) to the Asylum Office ("Clock-in Date" in APSS) to case
         completion ("Decision Served" or "Close Effective" in APSS). An additional performance
         measure is that 95% of pending reasonable fear cases must not be pending for more than 150
         days. HQASM will require that Asylum Offices submit written justification for every ease older
         than 150 days and provide updates every 30 days thereafter regarding progress on resolving the
         issues preventing decision issuance. Funher analysis will assist in developing additional internal
         benchmarks.

         Additionally, during the third quarter of Fiscal Year 2011. in recognition of the headquarters
         review delays referenced in the OIG report, HQASM detailed field supervisory asylum officers
         and quality assurance/training asylum officers to assist with the review of reasonable fear cases.

         For Fiscal Year 2012, HQASM has developed two key initiatives. The first initiative is to
         implement Refugee, Asylum and International Operations Directorate Quality Assurance (RAIO
         QA) review of Reasonable Fear determinations and pilot RAIO QA review of Credible Fear
         determinations. The second initiative for Fiscal Year 2012 consists of implementing the two
         processing standards for reasonable fear established in Fiscal Year 2011, as described above.
         Both of these new measures will be promulgated at the beginning of Fiscal Year 2012 through
         the annual memorandum to Asylum Office Directors outlinin8 each Asylum Office's
         performance objectives for the fiscal year. In addition, HQASM plans to modify APSS,
         reasonable fear procedures, and weekly reports in order to further standardize APSS data-entry
         and to assist Asylum Offices with the timely completion of reasonable fear determinations.

         Recommendation NS: Record in the Asylum Pre-Screening System database the date when
         each reasonable fear ease is returned to U.S. Immigration and Customs Enforcement jurisdiction.

         PIIS Responu: Non-concur. As discussed between USCIS Asylum Division and the Office of
         Inspector General (DIG), this recommendation was based on a perceived data deficiency in the
         Asylum Pre-Screening System (APSS) database resulting in the Asylum Division being Wlable
         to assess reasonable fear case completions. The OIG recommendation was for the Asylum

                                                                                                              4




                       Information Sharing on Foreign Nationals: Border Security 


                                                     Page 46

Appendix B
Management Comments to the Draft Report




        Division 10 record ",,'hen each reasonable fear case is returned 10 ICEjurisdietion as indication of
        Ctit completion.


        After the exit con.fereoce, the DIG requested that USCIS provide additional information on the
        APSS database to clarify the etlll'ent data entty procedure in APSS and how the Asylum Division
        assesses case completions for reasonable fear. 1l'Ie Asylum Division clarified that the APSS data
        field ("Decision SeNed'") is used to assc:ss timeliness and completion for reasonable fear cases.
        The "Dceision Served" date encornpasse:$ the change ofjwisdiction from USCIS As,.lum to the
        Department of Justice - Exec:uti~ Office for Immigration Review (OOJIEOIR) and to ICE.

        Since: the Asylum Division does have a way to record and assess reasonable fear timeliness and
        completioll$. DIG indicated that this recornmeDdation ""1N!d be: closed for cause upon is5llllJlOe
        of the fmal report.. USCIS agrees with DIG that this reeornmendation should be: closed.

         RfCOmmendadon "': Provide all Coordination Centers with live video feeds from security
        cameras in the airport tennina1s.

        PHS Rtspollle: Concur. The Coordination Center (CC) is the primary comrnWlication hub for
        all TSA llC1ivity ""i!hin the FSD domain. 1l'Ie CC continuously monitors. coordinates. and
        communicates situational and domain awareness of multimodal transponaIion activities and acts
        as the primary information and reporting conduit for security related incidents andfor
        emergencies. The CC serves as the focal point for TSA steady state operations. When
        applicable, CCs will transition to an Incident Command System (ICS) focusing on Incident
        Management (1M) andfor Emergency Management (EM).

        TSA recognius that the TSA Coordination Centers can play an inaeasing role in information
        sharing on foreign nationals in the: commercial airport environment. CWTtntly, acec:ss to CCTV
        is coordinated on the local level through TSA. airport operator and other entities with a need to
        know. Acc~ to CClV is airport owned and often this elTort is logistically challenging.
        Additionally. due to the variations ofCCs infrastructure oot all CCs an: operationally set-up or
        located \0 receive CCTV. In order to fully maximize tnc Coordination Centers' one-stop shop of
        information for !SA and its federal. state, and local agency panners at the locallcvcl, TSA will
        consider the resources available and whether or not we arc able to expand such access.

         Recomm~Ddation 117: Provide all Coordinll1ion Centers (CCl with ElCceSS to federal law
         enforcement data systems.

         DHS R~~[Ions~: Non-<:oncur. Aecess to criminal rccords is controlled by statute (The National
         Crime Prevention and Privacy Compact Act of 1998, 42 U.S.C. 14616), regulations implemented
         by the Department of Justice (28 CFR 20.33), SUIte laws, and policy. Individuals engaged in
         cenain criminal investigative activities may eonduct name-based eriminal record searches as
         necessary. However, certain other activities require the colle<:tion and submission of fingerprints
         and fees to the FBI in order to conduct a criminal records search. Thus, TSA's ability to conduct
         a name-based criminal reoords chock would depend on the reason for the search and type of
         activity taking place 111 a Cc.


                                                                                                             ,



                       Information Sharing on Foreign Nationals: Border Security 


                                                     Page 47

Appendix B
Management Comments to the Draft Report




         While expanded access to Federal law enforcement data systems is an overall TSA goal, pushing
         access to federal law enforcement information sources to the Coordination Centers is not the
         most effective solution. The primary role of the CC is to provide local support to TSA daily
         mission operations while monitoring transportation-related information sources within an FSD
         domain. Coordination Centers facilitate the gathering, dissemination, cornmWlication, and
         reporting of information to the Tl1lIlSportation Security Operations Center (TSOC) on a 24n
         basis, conduct routine ongoing operations and provide an incident management commWlication
         and coordination framework for FSD initial-response: actions.

         lbe CCs work in concert with TSA's Transportation Security Operations Center (TSOC), which
         is charged with providing 24 hOlm> a day, 7 days a week, 365 days a year coordination,
         commWlications, intelligence and domain awareness for all DHS transportation related security
         activities worldwide. When managing an incident requiring coordinalion with Federal law
         enforcement or other specialized database checks, CCs are expected to contact TSOC to obtain
         this information, consistent with TSA Operations Directives. This ensures TSA handles
         information in accordance with relevant criminal history record information law and policy.

         R«ommendation ItS: Provide federal law enforcement agencies updated training or guidance
         on the operational capabilities the Air and Marine Operations Center offers 10 support border
         security initiatives.

         DHS RtspOnH: Concur. CBP believes thai its ongoing efforts meet the intent of this
         recommendation and respectfully requests closure of the recommendation. A strategic goal of
         CBP's Air and Marine Operations Center (AMOC) is to continue to strengthen interagency and
         component agency partnerships to maximize homeland security strategies. To help accomplish
         this, an objective of the AMOC is 10 continue to promote AMOC missions, capabilities, and
         operalions across component and interagency organizations. AMOC intelligence and law
         enforcement tearns, along with AMOC Ambassadors, continuously provide law enforcement
         agencies at the federal, slate. and local levels wilh information on AMOC's capabilities. The
         AMOC hosts more than 2,500 visitors annually from various law enforcement agencies 10 which
         it provides information regarding AMOC capabilities. Training is accomplished allaw
         enforcement conferences; intelligence meetings; dedicated training on air smuggling laws,
         authorities, and current indicators; as well as dedicated AMOC lraining held at the Federal Law
         Enforcement Training Center. AMOC will conlinue to be proactive in these outreach and
         training efforts.




                                                                                                         6




                      Information Sharing on Foreign Nationals: Border Security 


                                                   Page 48

Appendix C
DHS Border Security Data Systems

            DHS INFORMATION SYSTEMS
Owner       Manages Information on Foreign Nationals (who may become citizens)
US-VISIT    ADIS
            Arrival and Departure Information System
            Collects, matches, and reports on U.S. arrivals and departures
USCIS       APSS
            Asylum Pre-Screening System
            Tracks detained and nondetained credible fear and reasonable fear cases
USCIS       CIS
            Central Index System
            Documents the existence and status of most aliens known to DHS and the
            location of their alien files
USCIS       CLAIMS3
            Computer-Linked Application Information Management System 3
            Tracks immigrant and nonimmigrant applications/petitions
USCIS       CLAIMS4
            Computer-Linked Application Information Management System 4
            Tracks naturalization applications
ICE         EARM
            Enforce Alien Removal Module
            Tracks detained aliens, aliens in removal proceedings, and case histories
ICE         ENFORCE
            Enforcement Case Tracking System
            Tracks immigration enforcement actions and cases
CBP         ESTA
            Electronic System for Travel Authorization
            Screening mechanism for applications from visa waiver travelers for travel
            authorization
US-VISIT    IDENT
            US-VISIT Automated Biometric Identification System
            Enrolls and stores biometrics of foreign nationals
USCIS       ISRS
            Image Storage and Retrieval System
            Provides query and retrieval of biometric image sets and biographical data
USCIS       RAPS
            Refugees, Asylum, and Parole System
            Tracks affirmative applicants for asylum status
ICE         SEVIS
            Student and Exchange Visitor Information System
            Tracks and monitors students, exchange visitors, and dependents
            Manages Information on Travelers (including U.S. citizens)
CBP         APIS
            Advance Passenger Information System
            Receives air and sea passenger manifests
The Coast
Guard       SANS
            Ship Arrival Notification System
            Arrival/departure information from shipping agents from flagged vessels
TSA         Secure Flight
            Secure Flight
            Watch list matching for flights into, out of, within, and over the United States
            Aggregates/Analyzes Information
CBP         ATS-P
            Automated Targeting System – Passenger
            Provides an enforcement and decision support tool
ICE         ICEPIC
            ICE Pattern Analysis and Information Collection System
            Provides an information analysis tool
ICE         Intel Fusion/Avalanche
            Intel Fusion/Avalanche/Virtual Investigative & Intelligence System



                          Information Sharing On Foreign Nationals: Border Security

                                                           Page 49
Appendix C
DHS Border Security Data Systems
            Provides access to TECS, ENFORCE, encounters, and arrests
            Manages Law Enforcement Information (including U.S. citizens)
CBP         TECS
            TECS (not an acronym)
            Collects, analyzes, and shares law enforcement information
Source: Database documentation, demonstrations.




                        Information Sharing on Foreign Nationals: Border Security

                                                    Page 50
Appendix D
Asylum Pre-Screening Case Disposition

Asylum Pre-Screening Cases

   Current Status         Credible Fear       Percentage       Reasonable Fear     Percentage by
                             Cases             by Case              Cases              Case
                                              Disposition                           Disposition
Fear Established               19,030             67%                 1,067            24%
Fear Not Established           4,792              17%                 1,377            30%
Case Closed:                   4,345              15%                 1,950            43%
Applicant Withdrew
Case Closed: Other            351                1%                    86               2%
Case Pending                   6                 0%                    52               1%
Total                       28,524              100%                  4,532            100%
Source: USCIS APSS data from June 1, 2005, to June 30, 2010.




                       Information Sharing On Foreign Nationals: Border Security

                                               Page 51
Appendix E
Reasonable Fear Case Timeliness


Reasonable Fear Case Timeliness
Reasonable Fear             Decisions    Average     Number         Percentage     Number of   Percentage
Cases                       with dates   days to     of             of decisions   decisions   of decisions
                            entered      complete    decisions      over 31        over 93     over 93
Decision Stages                          stage       over 31        days           days        days
                                                     days
Time Elapsed From the         2,436       33 days        847            35%           158          6%
Date ICE or CBP Notified
the Asylum Program of a
Claim Until the Date an
Initial Decision Was Made
Time Elapsed From the         2,221       11 days        159            7%             25          1%
Date an Initial Decision
Was Made Until the Date
the Case Was Forwarded
to Headquarters for
Review
Time Elapsed From the         1,850       29 days        682            37%            59          3%
Date the Case Was
Forwarded to
Headquarters Until the
Date the Case Was
Completed
Asylum Notification to        1,904       72 days        1,486          78%           466          24%
Case Completion
Total Reasonable Fear Decisions (with and without start and end dates) = 2,444
Total Reasonable Fear Decisions (including withdrawals) = 4,532
Source: USCIS APSS data from June 1, 2005, to June 30, 2010




                       Information Sharing On Foreign Nationals: Border Security

                                               Page 52
Appendix F
Major Contributors to this Report

                    Douglas Ellice, Chief Inspector
                    Lorraine Eide, Lead Inspector
                    Pharyn Smith, Senior Inspector
                    Michael Brooks, Inspector
                    LaDana Crowell, Inspector




                  Information Sharing On Foreign Nationals: Border Security

                                          Page 53
Appendix G
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      DHS Component Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                  Information Sharing On Foreign Nationals: Border Security 


                                           Page 54

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
